OFFICE OF AUDIT
REGION 10
SEATTLE, WA




           Idaho Housing and Finance Association
                         Boise, ID

         HOME Investment Partnerships Program




2013-SE-1001                               December 21, 2012
                                                 U.S. DEPARTMENT OF
                             HOUSING AND URBAN DEVELOPMENT
                                         OFFICE OF INSPECTOR GENERAL




                                                     Issue Date: December 21, 2012

                                                     Audit Report Number: 2013-SE-1001


TO:            Douglas P. Carlson, Director, Portland Office of Community Planning and
               Development, 0ED

               //signed//
FROM:          Ronald J. Hosking, Regional Inspector General for Audit, 0AGA

SUBJECT:       The Idaho Housing and Finance Association, Boise, ID, Did Not Always Comply
               With HOME Investment Partnerships Program Match and Compliance
               Monitoring Requirements


Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of the Idaho Housing and Finance
Association’s compliance with HOME Investment Partnerships Program requirements.

HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

If you have any questions or comments about this report, please do not hesitate to call me at 913-
551-5870.




                                                Office of Audit Region 10
                                    909 First Avenue, Suite 126, Seattle, WA 98104
                                       Phone (206) 220-5360, Fax (206) 220-5162
                           Visit the Office of Inspector General Website at www.hudoig.gov.
                                           December 21, 2012
                                           The Idaho Housing and Finance Association, Boise ID,
                                           Did Not Always Comply With HOME Investment
                                           Partnerships Program Match and Compliance
                                           Monitoring Requirements


Highlights
Audit Report 2013-SE-1001


 What We Audited and Why                     We reached management decisions concurrent with
                                             issuance of our report as a result of a management
                                             decision memorandum from the action official,
We audited the Idaho Housing and             dated December 20, 2012.
Finance Association’s HOME Investment
Partnerships Program because it received
approximately $6 million in HOME              What We Found
grants from the U.S. Department of
Housing and Urban Development (HUD)        Idaho Housing did not always comply with
in each of fiscal years 2008 through 2010. requirements for providing match funds for its
The objective of our review was to         HOME projects. This condition occurred because
determine whether Idaho Housing            Idaho Housing did not document and track matching
complied with HOME match fund and          contributions, reconcile match liability amounts, and
compliance monitoring requirements.        require supervisors to review match reports and
                                           support. As a result, if Idaho Housing is unable to
This is the second of two reports on Idaho provide eligible nonbond match funds for 2005
Housing's HOME program.                    through 2010, it could deprive its low- and very low-
                                           income families of needed benefits because it might
 What We Recommend                         have to repay more than $18.5 million in HOME
                                           funds.
We recommend that HUD require Idaho          Idaho Housing also did not adequately monitor the
Housing to provide eligible matching         compliance of its HOME projects. This condition
contributions, support, or both for more     occurred because Idaho Housing did not require its
than $4.6 million in ineligible and          staff and project owners to perform all necessary
unsupported matching contributions or        review and follow up activities. As a result, some of
repay HOME grant funds received of up        its HOME projects had significant physical
to $18.5 million for any matching            condition deficiencies and tenant eligibility
contributions it cannot support and          violations.
separately track its affordable housing
bond matching contributions carried
forward. We also recommend that Idaho
Housing bring its properties up to HUD
standards or reimburse its HOME trust
fund from non-Federal funds up to $2.2
million for any properties that remain
substandard.




                                                  
                           TABLE OF CONTENTS

Background and Objective                                                    3

Results of Audit
      Finding 1: Idaho Housing Did Not Always Comply With HOME Requirements 5
                 for Providing Match Funds
      Finding 2: Idaho Housing Did Not Adequately Monitor the Compliance    11
                 of Its HOME Projects

Scope and Methodology                                                      24

Internal Controls                                                          26

Other Matters To Be Reported                                               27

Appendixes
A.    Schedule of Questioned Costs                                         29
B.    Auditee Comments and OIG’s Evaluation                                30
C.    Schedule of Reported Ineligible and Unsupported Match                35
D.    Criteria                                                             38




                                           2
                      BACKGROUND AND OBJECTIVE

HOME Investment Partnerships Program

The National Affordable Housing Act of 1990 created the U.S. Department of Housing and
Urban Development’s (HUD) HOME Investment Partnerships Program. By establishing the
HOME program, Congress intended to establish a partnership between the Federal Government
and States, units of local government, and nonprofit organizations to expand the supply of
affordable, standard housing for low-income families.

In keeping with the concept of partnership, each jurisdiction participating in the HOME program
is required to make contributions to HOME-qualified housing in an amount equal to 25 percent
of the HOME funds drawn down for housing projects. These contributions are referred to as
“match.” A jurisdiction incurs a match liability each fiscal year based on the amount of HOME
funds drawn down from its U.S. Treasury account. In each fiscal year, a jurisdiction must make
eligible matching contributions in an amount that equals the match liability incurred during that
fiscal year. Matching contributions made in excess of the match liability may be carried forward
as match credit toward meeting the match liability incurred in future years. Each year, the
jurisdiction must submit a financial report in its consolidated annual performance and evaluation
report showing the amount of match funds carried forward from the previous year, the amount
contributed, the liability amount, and the excess match funds carried forward to the next year.
The report also includes match contribution details by type and date contributed for each project.

Participating jurisdictions must track matching contributions provided by maintaining records
demonstrating compliance with match requirements, including keeping a running log and
multiyear project records documenting the type, amount, and date of the matching contributions
for each project. Matching contributions derived from single-family affordable housing bonds
are limited to 25 percent of the total fiscal year liability and, therefore, must be tracked
separately.

Participating jurisdictions are also required to perform onsite inspections of HOME-assisted
rental housing at project completion and during the period of affordability. The jurisdictions
must determine whether the housing complies with property standards. They must also verify
that the information submitted by the owners meets HOME requirements. This requirement
includes information showing that the owners have complied with property and housing quality
standards and are able to continue to meet these standards.

Idaho Housing and Finance Association

In January 1991, the governor of Idaho designated the Idaho Housing and Finance Association as
the appropriate agency to act on behalf of the State of Idaho for all purposes under the Act. The
intent of Idaho Housing’s HOME program is to increase the availability of safe and decent
housing for low- and very low-income families, seniors, and individuals. As a participating
jurisdiction for HUD, Idaho Housing spent more than $19.8 million in HOME funds on 553
activities of the activity types shown below from April 2008 through February 2011.


                                                3
                                                               Funds
       Type             Activity                               expended
       Single family    Acquisition and new construction            $   771,851
       Single family    Acquisition only                              6,328,265
       Single family    New construction                                569,118
       Multifamily      Acquisition and new construction              1,075,115
       Multifamily      Acquisition and rehabilitation                1,022,898
       Multifamily      Acquisition only                              1,974,372
       Multifamily      New construction                              5,504,610
       Other            Administration and other                      2,602,353
       Total                                                        $19,848,582

Idaho Housing’s Grant Programs Department is responsible for HOME projects from application
through completion, including keeping track of and reporting its matching contributions. It is
also responsible for enforcing the regulatory agreement. Idaho Housing’s Housing Compliance
and Program Support Department is responsible for HOME compliance monitoring, including
inspections, and follow-up.

The objective of our review was to determine whether Idaho Housing complied with HOME
match fund and compliance monitoring requirements.




                                                  4
                                RESULTS OF AUDIT


Finding 1: Idaho Housing Did Not Always Comply With HOME
Requirements for Providing Match Funds

Idaho Housing did not always comply with requirements for providing match funds for its
HOME projects. This noncompliance occurred because Idaho Housing did not document and
track matching contributions, reconcile match liability amounts, and require supervisors to
review match reports and support. As a result, if it is unable to provide eligible nonbond
matching contributions for 2005 through 2010, it could deprive Idaho Housing’s low- and very
low-income families of needed benefits because it might have to repay more than $18.5 million
in HOME funds.


 Idaho Housing Did Not Always
 Comply With HOME’s Match
 Requirements

              Idaho Housing did not always comply with requirements for providing match
              funds for its HOME projects. We identified the following issues with the match
              funds reported in Idaho Housing’s 2006 through 2010 consolidated annual
              performance and evaluation reports: ineligible and unsupported matching
              contributions, untracked bond match carried forward, and match fund calculation
              errors.

 Idaho Housing Reported
 Ineligible and Unsupported
 Matching Contributions

              Idaho Housing reported ineligible and unsupported matching contributions. To be
              considered eligible as a matching contribution, the match source, form, and
              valuation must be adequately documented as detailed in Community Planning and
              Development Notice 97-03, HOME Program Match Guidance.

              We reviewed matching contribution supporting documents for 10 of 28
              multifamily and single-family projects and miscellaneous single-family homes
              that were completed or in process during our audit period and had reported match
              funds. Each project reviewed had ineligible, inaccurately valued, or inadequately
              supported matching contributions. For example,

                     Idaho Housing reported ineligible matching contributions of $364,928 for
                      Neider House Apartments. In July 2008, the owner’s representative sent
                      an email to Idaho Housing with estimates of costs to be contributed to the
                      project. Idaho Housing reported these estimates as match funds without

                                               5
       performing verification and analysis of the amount reported. The email
       included $1,480 for estimated labor costs of a finance director and project
       coordinator for attendance at a public meeting, classified as in-kind
       assistance. However, according to 24 CFR (Code of Federal Regulations)
       92.220(b), contributions from recipients of HOME assistance are not
       eligible (see appendix D). The email also included $363,448 for estimated
       roadway and infrastructure costs that were later billed to and paid by the
       project, not donated.

      Idaho Housing reported $243,000 in inaccurately valued and inadequately
       supported matching contributions for Rose Park Place. It used the
       estimated value of land donated for its matching contribution amount.
       However, the estimated value exceeded the appraised value of the land by
       $3,000. In addition, Idaho Housing did not fully support the $240,000
       appraised value of the land. According to the property appraisal, the
       $240,000 value of the land was “…as if vacant.” Idaho Housing did not
       reduce the value of the land for the costs incurred to make it vacant.

      Idaho Housing reported $103,137 in duplicated and outdated matching
       contributions for Creekside Senior apartments. Contrary to 24 CFR
       92.508, it did not maintain project records documenting the type and
       amount of match funds contributed for each project by fiscal year (see
       appendix D). It reported $69,578 in affordable housing program match
       funds in 2007 that were also reported in 2005. In addition it reported
       $33,359 in match funds that were dated September 2003. These match
       funds were not reported in 2003. However, Idaho Housing was unable to
       locate a match report for 2004, so we were unable to determine whether
       the match funds were reported in 2004.

See the table below and appendix C for the results for the other seven projects
reviewed.


 Project                 Deficiency noted                   Amount
 Cardona Senior          Inadequate support                 $ 46,791
 Clover Creek I          Inadequate support                   13,996
 Clover Creek II         Inadequate support                    7,568
 Clover Creek III        Inadequate support                    4,049
 Creekside LP            Ineligible, inaccurate valuation     69,159
 EICAP Lakeview          Inaccurate valuation                383,365
 EICAP Market Lake       Inaccurate valuation                 95,688

Idaho Housing did not provide us with support for the reported nonbond matching
contributions for the remaining 18 multifamily and single-family projects and
miscellaneous single-family homes as shown in appendix C. Therefore, more
than $3.5 million in other matching contributions reported for all projects during
2006 through 2010 was unsupported. Idaho Housing agreed with this amount.



                                   6
Idaho Housing Did Not
Separately Track Bond Match
Carried Forward

           Idaho Housing tracked the bond and nonbond match funds it contributed each
           year but not as contributions carried forward to the next fiscal year. Notice 97-03
           (see appendix D) limits affordable housing bond match funds to 25 percent of the
           match liability in each year. However, in 2005, Idaho Housing did not separately
           track excess affordable housing bond matching contributions carried forward to
           ensure that they did not exceed the limitation. In 2008 and 2009, Idaho Housing’s
           nonbond matching contributions decreased below the amount needed. This
           decrease resulted in its use of additional bond matching contributions that
           exceeded the 25 percent limitation by a total of $639,208 as shown below.

                      Excess                                                                 Bond
                       non-                          Total       Non-        Nonbond        match
         Program       bond      Nonbond           nonbond       bond        deficiency     used in
           year       carried   contribution       available    needed                     excess of
                     forward                                                                 25%
                                                                                          limitation
           2006      $ 31,105    $1,109,912        $1,141,017   $ 728,137            0           0
           2007       412,880     1,148,783         1,561,663      779,549           0           0
           2008       782,114       737,558         1,519,672    1,575,218     $55,546    $ 55,546
           2009             0       367,385           367,385      951,047     583,662     583,662
           2010             0       681,108           681,108      266,455           0           0
             Total                                                             $639,208   $639,208


Idaho Housing’s Match Reports
Contained Errors

           Idaho Housing miscalculated its reported match liability for each year of our audit
           period. According to the HOME match reporting form instructions, program
           income does not need to be matched. However, for all years except 2008,
           program income was included in the match liability, resulting in the liability’s
           being overstated. For 2008, the match liability excluded funds for projects that
           went forward, resulting in the liability’s being understated.

           The effect of these errors is shown below.




                                               7
                                                Liability
                   Program     Reported                          Corrected
                                               overstated
                     year      liability                          liability
                                             (understated)
                     2006     $ 970,849           $ 337,873        $ 632,976
                     2007      1,039,399             180,424         858,975
                     2008      2,100,291            (11,178)       2,111,469
                     2009      1,268,063             229,678       1,038,385
                     2010        395,273              61,955         333,318


           Idaho Housing’s 2010 match report contained an additional calculation error.
           Idaho Housing added the match liability of $395,273 to the amount contributed to
           arrive at the excess match funds for the fiscal year, instead of subtracting it. As a
           result, 2010 excess match funds were overstated by $790,546.

Idaho Housing's Procedures
Were Not Adequate

           Idaho Housing’s administrative plan contained its policy and HOME match fund
           requirements, but it did not have procedures requiring that

                  Staff document matching contributions according to the requirements in
                   Notice 97-03,
                  Staff maintain separate affordable housing bond and project matching
                   contribution tracking logs,
                  Staff reconcile match liability amounts based on Idaho Housing’s fiscal
                   year to amounts based on HUD’s fiscal year, and
                  Supervisors review the match reports and the support for the amounts in
                   those reports.

           Idaho Housing provided us with new match fund procedures during the audit. We
           reviewed these procedures and provided our feedback. While the procedures
           were improved, they were not adequate. Idaho Housing needs to implement
           complete controls to ensure that the future match funds contributed and credited
           comply with requirements.

Low-Income Families Might
Not Receive Needed Benefits

           Based on the lack of documentation of nonbond matching contributions and lack
           of tracking of bond match carried forward, Idaho Housing did not know whether
           its balance for match funds was accurate. If Idaho Housing is unable to provide
           eligible nonbond match funds for program years 2006 through 2010, it could
           deprive Idaho Housing’s low- and very low-income families of needed benefits
           because it might have to repay more than $18.5 million in HOME funds and
           remove the match funds from its books.



                                             8
             The ineligible and unsupported nonbond matching contributions reported in this
             finding were used to secure more than $18.5 million in HOME funds.
             Specifically, about $461,000 in ineligible matching contributions was used to
             secure almost $2 million in HOME funds, more than $3.5 million in unsupported
             matching contributions was used to secure more than $14 million in HOME
             funds, and more than $639,000 in bond matching contributions was improperly
             used to secure $2.5 million in HOME funds.

Conclusion

             Idaho Housing did not meet the requirements for providing matching
             contributions for 25 percent of its HOME funding due to ineligible and
             unsupported nonbond matching contributions. It was in the process of
             determining the eligibility of the matching contributions it previously reported
             and matching contributions identified in project applications but not previously
             reported. Since it could not support the amount it carried over to its fiscal year
             2006 report, it planned to resubmit its match reports for 2006 through 2010
             beginning with a carry forward amount of $0 based on this review. See appendix
             C for the amount of matching contributions needed to satisfy the corrected
             liability by program year.

Recommendations

             We recommend that the Director of the HUD Portland Office of Community
             Planning and Development require Idaho Housing to

             1A.    Provide $460,974 in eligible nonbond matching contributions from non-
                    Federal sources for affordable housing projects or repay its HOME trust
                    fund up to $1,843,896 ($460,974/0.25). Idaho Housing should also be
                    required to remove the ineligible match contributions from its books.

             1B.    Provide support for $3,538,081 in unsupported matching contributions,
                    provide eligible matching contributions from non-Federal sources for any
                    of these matching contributions it cannot support, or repay its HOME
                    trust fund up to $14,152,324 (3,538,081/0.25) for any amount that is not
                    supported. Idaho Housing should also be required to remove any
                    matching contributions it cannot support from its books.

             1C.    Provide $639,208 in eligible nonbond matching contributions or repay the
                    HOME trust fund up to $2,556,832 ($639,208/0.25) for the program years
                    that nonbond matching contributions were deficient because bond match
                    carried forward was not separately tracked.

             1D.    Resubmit its HOME match reports for program years 2006 through 2010
                    to reflect eligible matching contributions that are adequately supported by
                    its match log and supporting documents. Require Idaho Housing to start


                                              9
      with $0 match carry forward from prior program years rather than the
      amount previously reported in the 2006 match report.

1E.   Prepare and fully implement effective written policies and procedures for
      compliance with HOME match fund requirements.




                              10
Finding 2: Idaho Housing Did Not Adequately Monitor the Compliance
of Its HOME Projects

Idaho Housing did not adequately monitor the compliance of its HOME projects. This condition
occurred because Idaho Housing did not require its staff and project owners to perform all
necessary review and follow up activities. As a result, some of its HOME projects had
significant physical condition deficiencies and tenant eligibility violations.


 Idaho Housing Did Not
 Adequately Monitor Compliance

              Idaho Housing did not adequately monitor its HOME projects after project
              completion. Specifically, it did not always

                    Adequately perform and document its onsite physical condition
                     inspections,
                    Adequately verify occupancy reports and certifications submitted by the
                     owners,
                    Provide accurate information and guidance to the projects,
                    Conduct onsite monitoring when required, and
                    Take appropriate actions to resolve project deficiencies.

 Idaho Housing’s Onsite
 Monitoring Was Not Always
 Adequate

              Idaho Housing did not adequately perform and document its onsite physical
              condition inspections. Its inspection checklists were not always completed, and
              the second page was sometimes missing. In addition, its staff members used the
              wrong HUD checklist and did not document that they inspected the exterior
              structure and materials, site and neighborhood, space and security, and lead-based
              paint, if applicable, as required by 24 CFR 982.401 (see appendix D).

              Idaho Housing also did not always inspect a sufficient number of HOME-assisted
              units. HOME requires the participating jurisdiction to sample a sufficient number
              of units during its onsite inspections. HUD’s Office of Community Planning and
              Development, Office of Affordable Housing, clarified HOME’s regulation for
              sample size in its February 2001 HOME Fires publication. It stated that if
              compliance problems were identified during the onsite inspection of the sampled
              units, the participating jurisdiction should inspect the remaining HOME-assisted
              units to determine whether the units complied with established property standards.
              While Idaho Housing sampled a sufficient number of units initially, it did not
              inspect all of the units when compliance problems were identified in the units
              inspected.


                                              11
           For example, the Choice project is comprised of 16 scattered-site single-family
           rental houses. HOME requires Idaho Housing to inspect a sample of these units
           every 2 years. During the past two inspection cycles, Idaho Housing inspected
           four houses each cycle but inspected a total of only six of the houses in 4 years;
           two of the units were inspected during both inspections. Although Idaho Housing
           noted significant compliance problems in 5 of the 6 houses it inspected, it did not
           inspect any of the other 10 houses.

Idaho Housing Did Not Verify
Information

           Although Idaho Housing reviewed information, such as occupancy reports and
           certifications submitted by the owners, as part of a desk review, there was no
           indication that this information was verified during the onsite monitoring as
           required by HOME regulations at 24 CFR 92.504(d)(1) and Idaho Housing’s
           compliance monitoring procedures (see appendix D). In addition, it did not detect
           that the information the owners submitted did not include all items required by
           their regulatory agreements, including evidence of project compliance with
           property and housing quality standards and the projects’ ability to meet the
           standards.

Idaho Housing Provided
Inaccurate Information

           Idaho Housing’s compliance department provided inaccurate information to the
           owners of CORE Lodge, a single-room-occupancy HOME project for homeless
           individuals with mental disabilities. Idaho Housing’s 2010 compliance report
           stated that “…rent plus utilities plus mandatory fees…” must not exceed the
           maximum rent limit for 2010. However, HOME regulations at 24 CFR 92.252(c)
           state that the maximum rent limit includes utilities and services but no other
           mandatory fees (see appendix D). Idaho Housing compliance staff should not
           have instructed CORE staff to include all of the mandatory fees in the maximum
           rent but should have instructed them to break out the utilities from the other
           mandatory fees and include only the utilities in the maximum rent.

           In addition, the maximum rent of $443 that Idaho Housing quoted for these units
           was not accurate because it was the maximum rent amount for a studio apartment,
           not for a single room. According to Community Planning and Development
           Notice 94-01, for group homes, if a HOME-assisted single-room-occupancy unit
           has neither food preparation nor sanitary facilities or only one, the rent may not
           exceed 75 percent of the fair market rent for a zero-bedroom unit, or $332 for
           2010. Each of CORE Lodge’s units included only sanitary facilities with a shared
           kitchen.




                                           12
Idaho Housing Did Not Always
Monitor Compliance When
Required


           For two projects (Moscow Transitional and CORE Lodge), Idaho Housing did not
           conduct onsite monitoring as often as required. Under HOME regulations at 24
           CFR92.504(d)(1), Idaho Housing was required to perform onsite compliance
           monitoring for these projects every 2 years (see appendix D). However, it
           performed onsite monitoring of the CORE Lodge only in 2005 and 2010. It did
           not perform any HOME compliance monitoring of the Moscow Transitional
           project before the start of our audit.

Idaho Housing Did Not Always
Take Appropriate Actions

           Idaho Housing did not always take appropriate actions when performance
           problems arose as required by 24 CFR 92.504 (see appendix D). Idaho Housing’s
           compliance staff reported one or more types of compliance violations or
           deficiencies for 82 of the 88 projects it reviewed for 2010 as detailed in the chart
           below.

                          Results of 2010 compliance review
                                  Number of projects 
                            with violations or deficiencies
              Inaccurate identification of HOME units     9
                        Tenant income discrepancies           22
                          Missing tenant information               31
                 Housing quality standards violations                      60
                               Tenant file deficiencies                         70
               Projects with violations or deficiencies                              82
                Total project compliance inspections                                      88



           Idaho Housing’s compliance staff sent compliance reports to management agents
           instead of to the owners that certify compliance and did not require that all files
           be corrected for systemic violations found during tenant file reviews.

           In addition, Idaho Housing’s compliance department did not enforce timely
           response and correction of deficiencies. The compliance department gave the
           owner 30 days to provide documentation to cure compliance findings but did not
           enforce the 30-day requirement. It often gave the owner one or more additional
           letters requesting that the findings be cured before sending a notice of default to
           the owner as stipulated in the loan and regulatory agreement. It also closed some
           findings when the owner had not cured the findings.

                                                  13
           Further, Idaho Housing did not take adequate action against owners that had
           significant repeat compliance findings. Of the 82 projects with affordable
           housing requirements and housing quality standards violations, 21 had repeated at
           least one violation in each of the last four reviews as shown in the table below.


            IDIS*               Project name                 A     B    C     D      E
              1393    Ashton Place Apartments                 3    3     2    0      4
              3813    Avalon Park                             4    3     2    0      3
              2613    Berkshire Apartments                    4    2     2    0      4
               612    Carnoustie Apartments                   4    2     2    0      3
              3970    Carnoustie II Apartments                3    2     2    0      4
                82    Carriage Lane                           4    2     1    0      4
              4301    Devon Sr. Apartments                    4    2     0    0      1
                 8    El Milagro                              4    2     1    0      4
              1105    Fox Creek                               4    2     1    1      3
                46    Hamilton Court                          4    0     2    0      4
              1085    Kacy Meadows                            3    0     0    0      4
               939    Meadowbrook                             4    2     2    0      3
              1102    North Parke Apartments I                4    1     1    0      3
              1390    Shannon Glenn at Riverside Apts.        4    4     2    0      4
              1686    Sister's Villa                          4    1     2    1      1
                64    Skyview Terrace Apartments              3    3     2    0      4
              1389    Teton View                              4    3     1    0      3
              1394    Tramore Senior Apartments               4    1     0    0      1
                53    Twin Falls Garden Apts.                 4    4     2    0      4
               105    Western Gailes Apartments               4    0     0    0      1
               145    Willswood                               4    2     2    0      4
               * IDIS = HUD’s Integrated Disbursement and Information System

               A - Tenant file documentation was inadequate or inaccurate.
               B - Tenant income discrepancies
               C - Missing tenant information
               D - Inaccurate identification of HOME units or set-aside percentage
               E - Housing quality standards violation
           A through D are affordable housing requirements.


Idaho Housing Did Not Have
Adequate Procedures

           Idaho Housing did not require its staff and project owners to perform all
           necessary review and follow up activities. Specifically, it did not

                    Review the properties for compliance with all HOME requirements. It
                     primarily used compliance policies for its low-income housing tax credit



                                                 14
                 projects, along with only some HOME requirements that the compliance
                 department determined to be essential.
                Use the Section 8 Housing Choice Voucher program housing quality
                 standards checklist.
                Increase sample sizes when property standards or housing quality
                 standards compliance deficiencies were found during the onsite reviews.
                Require that project owners review all tenant files or inspect all units and
                 correct all deficiencies when deficiencies were found in the sample files
                 or units.
                Require onsite verification of all of the items required in the projects’
                 regulatory agreements and certifications.
                Determine which program requirements were the most restrictive when
                 projects had multiple funding sources and instruct owners, management
                 agents, and compliance staff regarding which requirements they were
                 required to follow.
                Require that the individual receiving the compliance reports be the same
                 individual who signs the certification of compliance to ensure that this
                 individual is aware of compliance problems.
                Require its employees to track and follow up on corrective actions in a
                 timely manner.
                Coordinate the exchange of compliance findings and other project
                 information between the compliance department and grants department.
                Have written guidelines for determining and implementing corrective
                 action, up to and including default, for participants that continually
                 violated HOME requirements and submitted false certifications.

HOME Projects Did Not
Always Comply With HOME
Requirements

         Some of Idaho Housing’s HOME projects had significant physical condition
         deficiencies and affordable housing violations. Idaho Housing’s regulatory
         agreement requires projects to continue to comply with HOME property standards
         and affordable housing requirements during the period of affordability; otherwise,
         the project will be placed into default and owners will be required to repay the
         HOME loan.

         We performed onsite unit inspections on seven projects and reviewed eight Idaho
         Housing project file reviews to determine whether the projects complied with
         HOME requirements. We found that

                Five projects (Choice, Moscow Transitional, Willswood, Elk Creek, and
                 Teton View) had significant property or housing quality standards violations
                 or both and
                Three projects (Choice, CORE Lodge, and Moscow Transitional) had
                 systemic tenant eligibility violations.


                                          15
Rental Projects Were
Noncompliant With Property
and Housing Quality Standards

         The Choice single-family rental houses did not meet property standards and housing
         quality standards. We inspected 12 of the 16 Choice single-family houses and
         noted property or housing quality standards violations in each unit reviewed as
         shown below.




           The electrical system was not     Electrical outlets were not always updated.
           updated. There were fuses rather There were no ground wires or ground fault
           than circuit breakers in at least circuit interrupters in several houses.
           two houses.




           A hole was cut larger than the         The paint was peeling, and the vinyl was
           electrical box, leaving exposed        torn in this bathroom. According to a
           electrical wires.                      worksheet provided by the compliance
                                                  department, some of these houses had
                                                  lead-based paint.




                                             16
The window was removed, but the         A hard-wired smoke detector was
siding was not repaired.                missing, leaving exposed electrical wires.




The ceiling tiles showed significant    The heating vent was extremely rusted
water damage but had not been           but had not been replaced.
replaced.

Moscow Transitional also did not meet property or housing quality standards.
This project was purchased in 1999, and the rehabilitation was said to have been
substantially completed in 2000, but the units needed new gutters and crawl space
repairs in 2004. We inspected all eight of the HOME units and noted many
property and housing quality standards violations.




                                17
The attic access cover was broken in several     There were missing light fixtures in
of the units, leaving the insulation exposed.    several of the units. In addition, some of
                                                 the bathroom fans did not work.




One unit had a bedroom that was full of         The vinyl was peeling, and the floor was
combustibles and clutter. There were no         filthy.
fire extinguishers on the premises.




                                18
                There was only one wall heater in each of the units, and
                the thermostat could not be set higher than 68 degrees.

Willswood also did not comply with property standards. We inspected the exterior
of the complex and one HOME unit in which the kitchen had been recently
remodeled.




The electrical system had not been    The siding was not properly prepared
updated. There was no ground fault    before being painted, which caused it to
interrupter in the kitchen or the     continue to deteriorate.
bathroom.




                               19
The siding had large holes in it.        There was no caulk between gaps in the
                                         trim, and the paint was peeling.




Some of the trim was coming off          Repairs were made, but the seams were not
due to the deteriorated siding.          caulked, and the painting was not
                                         completed.




                                    20
Elk Creek apartments, a new construction project, also did not meet property
standards. We inspected all five HOME units. Although we did not find
exceptions in the units inspected, we found exterior deficiencies.




A deck post was severely twisted.                Another deck post was cracked
                                                 where the railing was attached.

Teton View apartments, a new construction project, also did not meet property
standards during the period of affordability. We inspected all eight HOME units
and noted the following:




The door was not properly installed and     Commercial tile floors were cracking in
let cold air in. The property manager       most of the units inspected. The
stated that this was a problem in several   property manager stated that when
of the units.                               some of the tiles were replaced, dirt
                                            was found under them.

Idaho Housing expended a total of almost $2.2 million in HOME funds on these
five substandard projects as follows:


                                 21
              IDIS                                          HOME funds
               no.               HOME project                expended
             12/856     Choice single-family houses            $ 434,528
              763       Moscow transitional housing                326,550
              145       Willswood apartments                       575,048
              1391      Elk Creek apartments                       360,000
              1389      Teton View apartments                      475,000
                        Total                                   $2,171,126


Tenants Were Not Always
Determined To Be Eligible at
Move-In

            HOME regulations at 24 CFR 92.216 state the income targeting requirements for
            rental units and specify that tenant eligibility must be determined at move-in or
            when HOME funds are invested, whichever is later. In addition, HOME
            regulations at 24 CFR 92.203 state that participating jurisdictions must determine
            each family is income eligible by determining the family’s annual income (see
            appendix D). Of the eight Idaho Housing project file reviews reviewed, three
            projects (CORE Lodge, Moscow Transitional, and Choice) had significant tenant
            eligibility violations that had existed for more than 2 years. During its
            compliance reviews, Idaho Housing also determined that more than one-third of
            the HOME projects it reviewed in 2010 did not adequately document that all
            tenants were eligible.

                     CORE Lodge routinely admitted homeless, mentally disabled individuals
                      for 60 days or more before it attempted to determine tenant eligibility.
                      According to its management, it wanted to ensure that the tenant could
                      follow the Lodge’s rules before it would go through the tenant eligibility
                      process. However, HOME regulations require that tenant eligibility be
                      determined at move-in. Idaho Housing expended $102,204 on this
                      noncompliant project.

                     During its 2011 compliance review of Moscow Transitional, Idaho
                      Housing noted that six of the eight HOME units’ tenant files did not
                      contain sufficient documentation to determine tenant eligibility. The other
                      two units did not have a HOME file. Idaho Housing expended $326,550
                      on this noncompliant project.

                     All four of Choice’s tenant files that Idaho Housing compliance staff
                      reviewed in 2009 and 2011 had violations including insufficient income
                      documentation, incomplete tenant income certifications, and income
                      calculation errors. Idaho Housing expended $434,528 on this
                      noncompliant project.




                                                22
    Conclusion

                 Idaho Housing did not adequately monitor the compliance of its HOME projects.
                 It did not adequately perform and document its onsite physical condition
                 inspections, adequately verify occupancy reports and certifications submitted by
                 owners, provide accurate information and guidance to the projects, conduct onsite
                 monitoring when required, and take appropriate actions to resolve project
                 deficiencies. This condition occurred because Idaho Housing did not have
                 adequate procedures for monitoring HOME compliance and did not have an
                 adequate process for determining and implementing corrective action against
                 participants that continually violated HOME requirements.

                 As a result, some of its projects had significant physical condition deficiencies,
                 and Idaho Housing spent almost $2.2 million in HOME funds on five substandard
                 properties. In addition, some projects had affordable housing violations such as
                 inadequate, inaccurate, or missing tenant documentation; tenant income
                 discrepancies; and inaccurate identification of HOME units. Idaho Housing needs
                 to develop policies and procedures for the enforcement of compliance with
                 HOME requirements and its loan and regulatory agreements. It also needs to
                 place into default all projects that are in substandard condition or otherwise
                 noncompliant and allow the owners to cure the default by bringing the projects
                 into compliance or reimburse its HOME trust fund from non-Federal funds.

    Recommendations

                 We recommend that the Director of the HUD Portland Office of Community
                 Planning and Development require Idaho Housing to

                        2A.    Take timely action to bring all projects found to be in substandard
                               condition into compliance with HOME requirements or reimburse
                               its HOME trust fund with non-Federal funds up to $2,171,126 for
                               any properties that remain substandard.

                        2B.    Take timely action to establish project compliance with HOME
                               requirements on income determinations or reimburse its HOME
                               trust fund with non-Federal funds up to $863,282 for the amount of
                               HOME funds spent on these projects.1

                        2C.    Develop adequate policies and procedures for monitoring its
                               HOME projects.




1
 This amount includes $761,078 from recommendation 2A for Moscow Transitional and Choice, which were also
substandard projects.

                                                    23
                          SCOPE AND METHODOLOGY

Our audit covered the period April 2008 through February 2011. We expanded the period for the
match portion of the audit due to unresolved match findings from the 2004 and 2007 monitoring
reports issued by HUD’s Portland Office of Community Planning and Development. We also
incorporated the 2011 compliance report for our compliance finding analysis to provide the most
current information available. We performed our audit work on site at Idaho Housing, 565 West
Myrtle, Boise, ID, and at various project sites throughout the State from April 2011 through
January 2012.

To achieve our objective, we reviewed HUD and Idaho Housing criteria and contracts and met
with HUD and Idaho Housing staff. We obtained and reviewed project files for pertinent
documentation, such as match documentation, loan and regulatory agreements, compliance
reports, and supporting documents from HOME project monitoring reviews performed by Idaho
Housing’s compliance staff. We also made site visits to seven of the eight compliance
monitoring projects reviewed.

We initially reviewed a statistically sampled selection of vouchers to determine whether Idaho
Housing obtained sufficient documentation to support the eligibility of costs. Based on the
voucher review, we determined that a review by project would best meet our objectives.

For match, we obtained the match reported in Idaho Housing’s consolidated annual performance
and evaluation report. During the 5-year period from April 1, 2005, through March 31, 2010,
Idaho Housing reported a match liability of almost $5.8 million and match contributed of about
$13.2 million. Of the $13.2 million, $4 million in nonbond match was reported for 28
multifamily and single-family projects and other miscellaneous single-family projects. We
reconciled match reports to supporting documentation and verified their accuracy. We requested
match support for the 11 projects that were statistically selected for cost eligibility from our first
audit. Of these, Idaho Housing provided support for seven projects that had reported match and
two projects for which it had not previously reported match. One project did not have any
reported match, and Idaho Housing did not provide match support for the final project
requested. Based on these results, we requested match support for the remaining multifamily and
single-family projects and miscellaneous other single-family projects with match reported. We
also reviewed match support for four projects that were not originally reported. Idaho Housing
decided to withdraw the remaining reported match and resubmit the 2006-2010 match
reports. We computed the HOME funds expended for ineligible and unsupported match by
dividing the match amounts questioned by the match percentage of 0.25.

For compliance, we went on site to the two projects we initially identified as having not been
monitored for compliance in a timely manner. We also went on site to 5 of the 27 projects in
central and southeastern Idaho that had compliance findings during July and August 2011. We
selected each to ensure that we would review those that had different property management
firms. While on site, we interviewed property managers, reviewed tenant files, and inspected
HOME units. The purpose of our visits was to determine whether there were tenant file
violations or obvious property, housing quality standards, or Idaho Housing rehabilitation
standards violations. We did not conduct a full inspection of the projects. Therefore, other
violations may exist.

                                                 24
We did not rely on automated data other than to select our samples, and we reviewed hardcopy
documents for our analysis.

We briefed Idaho Housing and HUD’s Portland office management throughout the audit.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               25
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                     Policies and procedures for ensuring reliability of financial reporting.
                     Policies and procedures for determining compliance with applicable laws
                      and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiencies

               Based on our review, we believe that the following items are significant deficiencies:

                  Idaho Housing did not have adequate controls in place to ensure that HOME
                   match funds reported complied with regulations and requirements (finding 1).
                  Idaho Housing did not have adequate controls in place to ensure that HOME
                   projects were adequately monitored and inspected (finding 2).




                                                 26
                                 OTHER MATTERS

In our previous Idaho Housing audit, report number 2011-SE-1008, dated September 23, 2011,
we reported that Idaho Housing did not determine whether acquisition and rehabilitation projects
met HOME minimum building code requirements at application acceptance and at project
completion. It did not inspect these projects for compliance with the minimum code
requirements as established in its rehabilitation standards.

 Three Additional Projects

              During this second audit, we identified three additional acquisition and
              rehabilitation projects that were not inspected for compliance with minimum code
              requirements and violated property standards and Idaho Housing rehabilitation
              standards. These were Choice single-family rental houses, Moscow Transitional,
              and CORE Lodge.

 Choice Single-Family Rental
 Houses

              Choice houses did not all have electrical systems that complied with Idaho
              Housing’s rehabilitation standards. These standards required that all existing
              dwelling units have electrical service at a minimum of 100 ampere, three-wire
              capacities. In addition, the standards required ground fault circuit interrupter
              receptacles or protection for all exterior, bath, and kitchen sink receptacles.
              During our site visit, we noted that many of the houses did not have three-wire
              electrical systems and electrical outlets with ground fault circuit interrupter
              receptacles or protection where required. See pages 16-17.

 Moscow Transitional

              Moscow Transitional’s heating system did not meet Idaho Housing’s
              rehabilitation standards. It had one wall heater in each apartment. In accordance
              with the lease, the thermostat could not exceed 68 degrees, and tenants were not
              allowed to put space heaters into the bathroom or bedrooms.

              However, according to Idaho Housing’s rehabilitation standards, “Every dwelling
              shall have an effective heating system which is properly installed and capable of
              safely and adequately heating all habitable rooms in each dwelling unit to a
              temperature of at least 70 degrees Fahrenheit.” See pages 18-19.

 Willswood

              Willswood also did not comply with Idaho Housing’s rehabilitation standards.
              The unit we visited had updated kitchen cabinets. However, there were no ground

                                               27
            fault circuit interrupter receptacles in the kitchen or bathroom as required by the
            rehabilitation standards. In addition, the exterior painting that was done during
            the rehabilitation did not appear to have been performed in compliance with Idaho
            Housing’s rehabilitation standards. The standards required that all painted
            exterior surfaces be in good repair and all defective paint surfaces be properly
            prepared and painted. The siding either needed replacing when the rehabilitation
            was done or had not been properly prepared. See pages 19-20.

Projects Acquired and
Rehabilitated or Rehabilitated
Only

            According to information in HUD’s Integrated Disbursement and Information
            System, the following projects were also acquired and rehabilitated or only
            rehabilitated using HOME funds.

                 IDIS               Project name               HOME funds
                number                                           drawn
                     8   El Milagro                                 $904,638
                    12   Choice-Rental Acquisition 1                351,999
                    14   Sunnyridge                                  160,307
                    16   Cesar Chavez                                794,300
                    23   Farmway Village III                         518,634
                    43   Farmway Village IV                          947,000
                   129   Fountain Court 2                             37,500
                   130   Station 1938                                287,999
                   140   Eagle Block Bldg                            134,126
                   144   Kamps Apartments                            594,000
                   145   Willswood 1                                 575,048
                   648   Val-Vista Community Housing                 514,000
                   674   Transitional Housing For Region III         228,542
                   696   Pocatello Transitional Housing              323,269
                   763   Moscow Transitional Housing1                326,550
                   856   Choice-Developmentally Disabled 1            82,529
                  1057   Glenns Landing Apartments                   209,998
                  1185   SCCAA Transitional Housing                  187,670
                  1480   Star Motel                                  268,824
                  1686   Sisters Villa                               800,000
                  3035   Old CORE Lodge-Poplar                        69,480
                  3914   4th Street Project                          662,563
                         Total amount drawn                       $8,978,975

            1
             Recommendation 2A in this report includes more than $1.3
            million in HOME funds spent on Choice, Moscow Transitional,
            and Willswood.

                                               28
                                          APPENDIXES

Appendix A

                     SCHEDULE OF QUESTIONED COSTS

               Recommendation             Ineligible          Unsupported
                   number                     1/                  2/
                          1A.               $ 1,843,896
                          1B.                                  $14,152,324
                          1C.                $2,556,832
                          2A.                                    2,171,126
                          2B.                                     102,2042
                                             $4,400,728        $16,425,654


1/      Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
        that the auditor believes are not allowable by law; contract; or Federal, State, or local
        policies or regulations. We computed the HOME funds expended for ineligible match by
        dividing the match amounts questioned by the match percentage of 0.25.

2/      Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
        or activity when we cannot determine eligibility at the time of the audit. Unsupported
        costs require a decision by HUD program officials. This decision, in addition to
        obtaining supporting documentation, might involve a legal interpretation or clarification
        of departmental policies and procedures. We computed the HOME funds expended for
        unsupported match by dividing the match amounts questioned by the match percentage of
        0.25.




2
  This amount does not include the $761,078 from recommendation 2A for Moscow Transitional and Choice, which
were also substandard projects. To close the recommendations, these projects must be considered under both
recommendations 2A and 2B.


                                                     29
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         30
Ref to OIG Evaluation   Auditee Comments




Comment 2




                         31
Ref to OIG Evaluation   Auditee Comments




Comment 3




Comment 4




Comment 5




Comment 6




                         32
Ref to OIG Evaluation   Auditee Comments




Comment 7




                         33
                          OIG Evaluation of Auditee Comments

Comment 1    The $4.6 million in matching contributions in recommendations 1A through 1C
             was the amount Idaho Housing reported in its consolidated annual performance
             and evaluation report and that we determined was ineligible and unsupported.
             Idaho Housing could have used this amount improperly if we had not conducted
             the audit, and would have carried the excess ineligible and unsupported match
             forward to the 2011 report. The amount in Appendix C is the actual amount that
             is required to meet the 2008 through 2010 liability and resolve the
             recommendations, considering the audit findings and match not reported, but
             eligible.

Comment 2    Although we cannot address the condition of the projects we did not visit, of the 7
             projects we visited, 5 did not comply with HOME housing quality standards. In
             addition, the compliance staff was unable to substantiate its use of Uniform
             Property Condition Standards (UPCS).

Comment 3    Idaho Housing provided us with the compliance reports for Star Motel. From
             those reports, we determined the project was timely reviewed. Therefore, we
             have removed this project from the report. However, Idaho Housing did not
             include Star Motel in its compliance report for 2008. In 2010, it included Star
             Motel; however, the date last inspected was left blank.

Comment 4    While it is within Idaho Housing’s purview to define appropriate action for
             project compliance management, the compliance staff did not follow their own
             procedures.

Comment 5     The compliance files we reviewed did not include any workout plans. However,
             we changed the recommendations to ensure that Idaho Housing takes timely
             action to bring substandard projects into compliance. If the projects are not
             brought into compliance, we recommend that Idaho Housing be required to repay
             the HOME funds for these projects.

Comment 6    The e-mail that the Idaho Falls building inspector sent to Idaho Housing did not
             state whether or not conditions noted were code, property standards, or housing
             quality standards violations. However, the inspector did say, “the twisting may
             have affected the nail connection, they may want to add some kind of Simpson
             connector or nail a block to the side of the beam and post.” In addition, according
             to housing quality standards in 24 CFR 401(g) “The dwelling unit must be
             structurally sound. The structure must not present any threat to the health and
             safety of the occupants ….” If the nail connection was affected, the post could be
             structurally unsound.

 Comment 7 We agreed to and made changes to recommendations 2A and 2B. Those changes
           have been incorporated into this report. We did not agree to any changes to
           recommendation 2C.




                                             34
       Appendix C
                             SCHEDULE OF REPORTED
                       INELIGIBLE AND UNSUPPORTED MATCH


IDIS                               2006           2007            2008       2009       2010      Reported    Reported
 No.        Project name          CAPER*         CAPER           CAPER      CAPER      CAPER      ineligible unsupported
 813   Avalon Park                  $180,000                                                                   $180,000
5184   Cardona Senior1                                                       $46,791                             46,791
4720   Castlerock                    206,005       $336,254                                                     542,259
5153   Clover Creek I2                                                        13,996                             13,996
5154   Clover Creek II2                                                        7,568                              7,568
5155   Clover Creek III2                                                       4,049                              4,049
3914   Club-4th St.                  165,641                                                                    165,641
3310   Creekside LP3                  69,159                                                      $ 23,468
4312   Creekside Senior4                            103,137                                         69,578       33,559
4301   Devon Senior                  157,500                                                                    157,500
4766   EICAP Lakeview5                                                        89,965   $293,400                 383,365
4940   EICAP Market Lake5                                                     95,688                             95,688
5158   Freedom Village                                             80,576                                        80,576
4175   Habitat for Humanity           53,158                                                                     53,158
4704   Heritage Place III             41,529         50,000                                                      91,529
3423   Independence Hill              72,500                                                                     72,500
5159   Leisure Village II                                         196,350                                       196,350
5160   Leisure Village VIII                                                   74,175                             74,175
5161   Leisure Village X                                           64,652                                        64,652
5935   Neider House6                                                                    364,928    364,928
5058   Rose Park Place7                             243,000                                          3,000      240,000
3307   Sagewood                      105,250                                                                    105,250
4090   SEICAA Manor                                 135,500                                                     135,500
5662   SEICCA Homebuyer                                                       19,976     21,975                  41,951
5939   SEICCA Homebuyer                                                                     805                     805
4832   The Cottage                                    2,000                                                       2,000
4793   Tullamore Senior                             110,000       170,980                                       280,980
5462   PHNS Infill                                                225,000     15,177                            240,177
Misc   Single-family other            59,170        168,892                                                     228,062
       Total nonbond              $1,109,912     $1,148,783      $737,558   $367,385   $681,108
       Unsupported nonbond        $1,109,912     $1,145,783      $737,558   $367,385   $316,180              $3,538,081
       Ineligible nonbond            $23,468        $72,578                            $364,928   $460,974
       * CAPER = consolidated annual performance and evaluation report




                                                            35
Audit Results for Reported Match by Project for

   (1) Cardona (5184): Idaho Housing reported site preparation and donated materials and
       labor match of $46,701 for the Cardona apartments. It provided support for $133,750 in
       donated materials and professional services match. However, this amount appears to
       have been billed to and paid by the project and is not the amount that was reported.

   (2) Clover Creek I (5153), II (5154) and III (5155): Idaho Housing reported appraised land
       and real estate property match totaling $25,613 for the three Clover Creek apartments.
       The amount reported was based on 10 percent of the match amount that was required for
       the three projects without additional support. However, Idaho Housing provided letters
       addressed to the buyer from the seller for two of the three Clover Creek projects, stating
       that the buyer was willing to sell the projects for considerably less than the appraised
       value to make the “…preservation of this low-income apartment complex feasible.” This
       match would have been eligible, but it was a different amount than the amount reported,
       and the appraisals were dated more than a year before the purchase date. We were not
       provided any other documentation to support the reported match.

   (3) Creekside LP (3310): Idaho Housing reported an inaccurately valued affordable housing
       program match of $69,159 for Creekside LP apartments. According to the support
       provided by Idaho Housing, the bond match should have been valued at $45,691.
       Therefore, $23,468 was ineligible.

   (4) Creekside Senior (4312): See page 6 of the report.

   (5) EICAP Lakeview (4766) and Market Lake (4940): Idaho Housing reported an
       inaccurately valued supportive services match of $383,365 for Lakeview apartments and
       $95,688 for Market Lake apartments. Idaho Housing based the reported match on
       estimated supportive services for the projects. However, according to Notice 97-03,
       supportive services match must be supported by the actual costs of services provided to
       the residents of these projects. Also, there was no identification of the source of the
       supportive services in violation of 24 CFR 92.220(b) (see appendix D). If the services
       were funded by another Federal source or donated by the recipients of the HOME
       assistance, it would not be eligible.

   (6) Neider House (5935): See pages 5-6 of the report.

   (7) Rose Park Place (5158): See page 6 of the report.

The amount of eligible matching contributions needed for each year to satisfy our audit
recommendations with $359,912 carried forward to 2011 is shown in the table below.




                                               36
        Idaho                                                               Match
                                  Corrected     Eligible   Match not
       Housing      Corrected                                             needed to
                                  non-bond      match       reported
       program       liability                                              satisfy
                                   liability   reported    but eligible
         year                                                              liability
            2006     $ 632,976    $ 474,732                               $ 474,732
            2007        858,975      644,231   $45,691                       598,540
            2008      2,111,469    1,583,602               $ 339,498       1,244,104
            2009      1,038,385      778,788                 169,900         608,808
            2010        333,318      249,988                 609,900               0

            Total   $4,975,123    $3,731,341   $45,691     $1,119,298     $2,926,264


Our review of the match not reported is included below.

   Fruitland (5574): Idaho Housing provided adequate supporting documentation for $169,900
   for land donation match. The match was credited on April 21, 2009 (program year 2009).

   Neider House (5935): Idaho Housing provided adequate documentation for $609,900 for
   land donation match. The match was credited on May 5, 2010 (program year 2010).

   Ponderosa (5677): Idaho Housing provided adequate documentation for $339,498 in below
   market interest rate loan match. The match was credited on January 7, 2009 (program year
   2008).

   Rosslare (5185): Idaho Housing provided documentation for $225,000 in donated
   construction material and professional services match that it planned to submit in a revised
   match report. However, this match was not supported because there was a draw request for
   the match without verification that the match was not paid. If Idaho Housing provides
   documentation that the amount was donated, it would be eligible match.




                                                 37
Appendix D
                                          CRITERIA


24 CFR 92.203(a) states, “The HOME program has income targeting requirements for the HOME
program and for HOME projects. Therefore, the participating jurisdiction must determine each
family is income eligible by determining the family’s annual income.”

24 CFR 92.216 states, “Each participating jurisdiction must invest HOME funds made available
during a fiscal year so that, with respect to…rental units:
     a. Not less than 90 percent of:
         1. The families receiving such rental assistance are families whose annual incomes do
            not exceed 60 percent of the median family income for the area, as determined and
            made available by HUD with adjustments for smaller and larger families...at the time
            of occupancy or at the time funds are invested, whichever is later; or
         2. The dwelling units assisted with such funds are occupied by families having such
            incomes;
     b. The remainder of:
         1. The families receiving such rental assistance are households that qualify as low-
            income families…at the time of occupancy or at the time funds are invested,
            whichever is later; or
         2. The dwelling units assisted with such funds are occupied by such households.”

24 CFR 92.218(a) states, “Each participating jurisdiction must make contributions to housing
that qualifies as affordable housing under the HOME program, throughout a fiscal year. The
contributions must total not less than 25 percent of the funds drawn from the jurisdiction’s
HOME Investment Trust Fund Treasury account in that fiscal year, excluding funds drawn for
purposes identified in paragraph (c) of this section.”

24 CFR 92.220(a)(5)(iii) states, “Loans made from bond proceeds may not constitute more than
25 percent of a participating jurisdiction’s total annual match contribution.”

24 CFR 92.220(b) states, “Ineligible forms. The following are examples that do not meet the
    requirements of paragraph (a) of this section and do not count toward meeting a participating
    jurisdiction’s matching contribution requirement:
    1. Contributions made with or derived from Federal resources or funds, regardless of when the
       Federal resources or funds were received or expended. CDBG funds (defined in 24 CFR
       570.3) are Federal funds for this purpose; …
    3. Owner equity or investment in a project; and
    4. Cash or other forms of contributions from applicants for or recipients of HOME assistance or
       contracts, or investors who own, are working on, or are proposing to apply for, assistance for
       a HOME-assisted project.”

24 CFR 92.251(a) states, “Housing that is constructed or rehabilitated with HOME funds must
meet all applicable local codes, rehabilitation standards, ordinances, and zoning ordinances at the



                                                 38
time of project completion…The participating jurisdiction must have written standards for
rehabilitation that ensure that HOME-assisted housing is decent, safe, and sanitary…”

24 CFR 92.251 (c) states, “An owner of rental housing assisted with HOME funds must maintain
the housing in compliance with all applicable State and local housing quality standards and code
requirements and if there are no such standards or code requirements, the housing must meet the
housing quality standards in 24 CFR 982.401.”

24 CFR 92.252(c) states, “The participating jurisdiction must establish maximum monthly
allowances for utilities and services (excluding telephone)…For all units subject to the maximum
rent limitations in paragraphs (a) or (b) of this section for which the tenant is paying utilities and
services, the participating jurisdiction must ensure that the rents do not exceed the maximum rent
minus the monthly allowances for utilities and services.”

24 CFR 92.504(a) states, “The participating jurisdiction is responsible for managing the day to
day operations of its HOME program, ensuring that HOME funds are used in accordance with all
program requirements and written agreements, and taking appropriate action when performance
problems arise.”

24 CFR 92.504(d)(1) states, “HOME assisted rental housing. During the period of affordability,
the participating jurisdiction must perform on-site inspections of HOME-assisted rental housing
to determine compliance with the property standards of § 92.251 [Property Standards] and to
verify the information submitted by the owners in accordance with the requirements of § 92.252
[Qualification as Affordable Housing: Rental Housing] no less than: every three years for
projects containing 1 to 4 units; every two years for projects containing 5 to 25 units; and every
year for projects containing 26 or more units. Inspections must be based on a sufficient sample
of units.”

24 CFR 92.508(a)(2)(ix) states, “Participating jurisdictions… must maintain records
demonstrating compliance with the matching requirements of § 92.218 through § 92.222
including a running log and project records documenting the type and amount of match
contributions by project.”

24 CFR 982.401, Section 8 Tenant-Based Assistance Housing Quality Standards, includes

    “(d) Space and security —
        (1) Performance requirement. The dwelling unit must provide adequate space and
        security for the family.
        (2) Acceptability criteria.
            (i) At a minimum, the dwelling unit must have a living room, a kitchen area, and a
            bathroom.
            (ii) The dwelling unit must have at least one bedroom or living/sleeping room for
            each two persons. Children of opposite sex, other than very young children, may not
            be required to occupy the same bedroom or living/sleeping room.
            (iii) Dwelling unit windows that are accessible from the outside, such as basement,
            first floor, and fire escape windows, must be lockable (such as window units with
            sash pins or sash locks, and combination windows with latches). Windows that are



                                                   39
            nailed shut are acceptable only if these windows are not needed for ventilation or as
            an alternate exit in case of fire.
            (iv) The exterior doors of the dwelling unit must be lockable. Exterior doors are
            doors by which someone can enter or exit the dwelling unit.
   (g) Structure and materials —
        (1) Performance requirement. The dwelling unit must be structurally sound. The
        structure must not present any threat to the health and safety of the occupants and must
        protect the occupants from the environment.
        (2) Acceptability criteria.
             (i) Ceilings, walls, and floors must not have any serious defects such as severe
            bulging or leaning, large holes, loose surface materials, severe buckling, missing
            parts, or other serious damage.
            (ii) The roof must be structurally sound and weathertight.
            (iii) The exterior wall structure and surface must not have any serious defects such as
            serious leaning, buckling, sagging, large holes, or defects that may result in air
            infiltration or vermin infestation.
            (iv) The condition and equipment of interior and exterior stairs, halls, porches,
            walkways, etc., must not present a danger of tripping and falling. For example,
            broken or missing steps or loose boards are unacceptable.
            (v) Elevators must be working and safe…
   (j) Lead-based paint performance requirement. The Lead-Based Paint Poisoning Prevention
   Act (42 U.S.C. 4821–4846), the Residential Lead-Based Paint Hazard Reduction Act of 1992
   (42 U.S.C. 4851–4856), and implementing regulations at part 35, subparts A, B, M, and R of
   this title apply to units assisted under this part.
   (l) Site and Neighborhood —
        (1) Performance requirement. The site and neighborhood must be reasonably free from
        disturbing noises and reverberations and other dangers to the health, safety, and general
        welfare of the occupants.
        (2) Acceptability criteria. The site and neighborhood may not be subject to serious
        adverse environmental conditions, natural or man made, such as dangerous walks or
        steps; instability; flooding, poor drainage, septic tank back-ups or sewage hazards;
        mudslides; abnormal air pollution, smoke or dust; excessive noise, vibration or vehicular
        traffic; excessive accumulations of trash; vermin or rodent infestation; or fire hazards.”

Community Planning and Development Notice 97-03 V. E. states, “…Total match credit from
loans made from affordable housing bond proceeds may not constitute more than 25% of a PJ’s
[participating jurisdiction] total annual contribution toward its match obligation. Match credit
from loans made in excess of 25% of a PJ's total annual match obligation may be carried over to
subsequent fiscal years and applied to the following year's 25% annual contribution.”

Notice 97-03 V. J., Supportive Services, states, “The PJ may only count the cost of supportive
services provided to families residing in HOME-assisted units or receiving HOME tenant-based
rental assistance as match...The direct costs that may be counted as match are limited to salary
costs (including benefits) directly attributable to the provision of the supportive services to
residents of HOME units and the cost of materials directly related to the provision of these
services (e.g., food, medical supplies). The actual cost of providing these services must be
supported by invoices, time cards or similar documents. For match purposes, the provider’s



                                               40
overhead costs (e.g., rent, office equipment and supplies, etc.) are not considered direct costs of
the supportive service.”




                                                 41
